U. S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL




AUDIT OF CONSTRUCTION OF AN
ENVIRONMENTAL, SAFETY, AND HEALTH ANALYTICAL LABORATORY
AT THE PANTEX PLANT




        The Office of Inspector General wants to make the
distribution of its reports as customer friendly and cost effective as
possible. Therefore, this report will be available electronically through
the Internet five to seven days after publication at the following
alternative addresses:


Department of Energy Headquarters Gopher
gopher.hr.doe.gov

Department of Energy Headquarters Anonymous FTP
vml.hqadmin.doe.gov

U.S. Department of Energy Human Resources and Administration
Home Page
http://www.hr.doe.gov/refshelf.html

        Your comments would be appreciated and can be provided on
the Customer Response Form attached to the report.




This report can be obtained from the
U.S. Department of Energy
Office of Scientific and Technical Information
P.O. Box 62
Oak Ridge, Tennessee 37831

Report Number:   WR-B-96-02        Western Regional Audit Office
Date of Issue:   October 6, 1995   Albuquerque, New Mexico 87185

AUDIT OF CONSTRUCTION OF AN
ENVIRONMENTAL, SAFETY, AND HEALTH ANALYTICAL LABORATORY
AT THE PANTEX PLANT


TABLE OF CONTENTS

                                                              Page

           SUMMARY ........................................     1
PART I   -   APPROACH AND OVERVIEW ..........................    2

             Introduction   ..................................   2

             Scope and Methodology ..........................    2

             Background .....................................    3

             Observations and Conclusions ...................    3

PART II -    FINDING AND RECOMMENDATIONS ....................    5

             Need for Construction of an ES&H Laboratory ....    5

PART III - MANAGEMENT AND AUDITOR COMMENTS ................ 10


U. S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
                     OFFICE OF AUDIT SERVICES
AUDIT OF CONSTRUCTION OF AN
ENVIRONMENTAL, SAFETY, AND HEALTH ANALYTICAL LABORATORY
AT THE PANTEX PLANT

Audit Report Number:    WR-B-96-02           October 6, 1995

SUMMARY

     The Secretary of Energy envisions the Department operating more cost
effectively, while maintaining its level of service to the American public.
It is, therefore, imperative that Managers pursue only those construction
projects that are vital to the Department of Energy (Department) mission
requirements and that projects are accomplished in the most economical and
efficient manner possible. The objective of this audit was to determine
whether the construction of an Environmental, Safety, and Health Analytical
Laboratory (ES&H Laboratory) at the Pantex Plant near Amarillo, Texas is
needed and whether construction is the most cost effective alternative for
meeting mission needs.

        The Department planned to construct a new ES&H Laboratory at Pantex
even though its mission requirements were already being satisfied either at
onsite laboratories or commercial laboratories. Construction of the
laboratory had been approved because the Department relied on justifications
that were not updated and were, therefore, inadequate. Furthermore, required
evaluations of alternatives were either not performed or not documented. As
a result, the Department planned to spend an additional $8.4 million on a
laboratory that was not adequately justified as necessary, that may compete
with private sector laboratories, and that may not provide a sufficient
appearance of independence.

        We recommended that the Manager, Albuquerque Operations Office,
suspend additional funding for the project until the need is clearly
established and cost/benefit analyses are performed. We also recommended
that the Manager cancel the construction project if the ES&H Laboratory
cannot be justified. Albuquerque management concurred with the
recommendations.




PART I

APPROACH AND OVERVIEW

INTRODUCTION

     The Secretary of Energy envisions the Department operating more cost
effectively, while maintaining its level of service to the American public.
It is, therefore, imperative that Managers pursue only those construction
projects that are vital to the Department of Energy (Department) and that
projects are accomplished in the most economical and efficient manner
possible. The objective of this audit was to determine whether the
construction of an Environmental, Safety, and Health Analytical Laboratory
(ES&H Laboratory) at the Pantex Plant near Amarillo, Texas is needed and
whether construction is the most cost effective alternative for meeting
mission needs.
SCOPE AND METHODOLOGY

    The audit was conducted at the Albuquerque Operations Office
(Albuquerque); Amarillo Area Office; Pantex contractors Mason & Hanger -
Silas Mason Co., Inc. (Mason & Hanger) and Battelle Memorial Institute
(Battelle), Amarillo, Texas; and at the Office of Defense Programs,
Germantown, Maryland.

     To accomplish the audit objective, we:

     o reviewed Federal law, Department and Albuquerque Orders,         and
an Office of Management and Budget Circular to        identify requirements;

     o obtained and evaluated the Conceptual Design Report and
construction project data sheets to identify        alternatives and the
justification for need;

     o   interviewed key Department and contractor officials;

     o   toured existing laboratory facilities; and,

     o reviewed project files, contracts, prior audits, and          other
relevant documents.

     We performed the audit according to generally accepted Government
Auditing Standards for performance audits and included tests of internal
controls and compliance with laws and regulations to the extent necessary to
satisfy the audit objective. We limited the internal control review to the
planning and management of line item projects and did not rely on any
computer-generated data to develop this report. Since the review was
limited, it would not necessarily disclose all internal control deficiencies
that may have existed at the time
of our audit.

        We performed the audit during the period from January to August 1995.
We discussed audit findings with the Director, Project & Facilities
Management Division on August 18, 1995.

BACKGROUND

        In the 1980s, the mission of the Pantex complex was to produce high
explosive components for nuclear weapons, assemble nuclear weapons, modify
and maintain the nuclear weapon stockpile, perform quality evaluations of
nuclear weapons, and dispose of obsolete weapons in the stockpile. As
production requirements declined in the 1990s, the Pantex mission expanded to
include weapons disassembly, research and development of alternative uses for
plutonium, technology transfer, and environmental restoration.

        In support of its mission, Pantex performed or contracted for various
analyses of chemical, explosive, and environmental samples. At the time of
our review, most of the chemical and explosive testing was carried out at
various laboratories onsite, including a chemistry/explosives laboratory
built in 1969. Most of the environmental samples were sent offsite to
commercial laboratories for analysis.

     The 1988 Pantex Site Development Plan first proposed the construction of
a laboratory to consolidate existing analytical and sampling operations. The
1991 Site Development Plan described the proposed laboratory as an onsite,
16,000 square foot, ES&H Analytical Laboratory to be used for both
environmental and explosive sample testing. The plan estimated that the ES&H
Laboratory could be built at a cost of $8.8 million with construction to
begin in 1994. The laboratory's primary functions would be to provide onsite
capability and capacity to test environmental samples and waste, to
characterize waste streams, and to support weapon activities. Construction
of the new ES&H Laboratory would allow the Department to conduct the bulk of
its testing onsite rather than going offsite to laboratories run by
commercial vendors or educational institutions.

OBSERVATIONS AND CONCLUSIONS

     The Department did not document that construction of the proposed ES&H
Laboratory was needed to meet the Pantex Plant's mission requirements. Based
on the lack of supporting documentation and other information discussed in
Part II of this report, we concluded that the Department spent about $400,000
and plans to spend an additional $8.4 million for a new ES&H Laboratory that
may not be justified.

     The 1988 justification stated that a laboratory was needed to provide
onsite capacity and capability to test environmental samples and waste, to
characterize waste streams, and to support weapons activities. However,
environmental sample analysis is currently being done offsite with no major
problems. Additionally, the Department anticipates significant reductions in
nuclear weapons activities. This reduction will, in turn, affect the number
of samples to be analyzed at the proposed laboratory. Despite the
satisfactory performance of the offsite laboratories and an anticipated
reduction in nuclear activities, the justification for the ES&H Laboratory
has not been reevaluated.

     The Department also did not have documentation to support that
constructing a new facility was more cost effective than continuing the
status quo or pursuing other alternatives. The 1991 Conceptual Design
Report, for example, showed five alternatives for the proposed ES&H
Laboratory but did not adequately support Mason & Hangar's conclusion that
constructing a new facility was more cost effective. In addition, there was
no documentation showing that either the Department or Mason & Hanger studied
the five alternatives to determine if they represented viable options for
meeting Pantex' mission requirements.

     If the Department constructs a laboratory that is not needed, it will
spend an additional $8.4 million unnecessarily, may inappropriately compete
with private sector laboratories, and may harm, rather than help, public
perceptions of the Department's credibility. We recommended, therefore, that
the Manager, Albuquerque Operations Office, suspend additional funding for
the project until the need is clearly established and cost/benefit analyses
are performed.

    Albuquerque reported a management control weakness in its Fiscal Year
1994 annual assurance memorandum concerning, in part, whether roles and
responsibilities for project management at all levels were clearly defined.
At the time of our review, Albuquerque had not implemented corrective action
to solve this weakness.


PART II
FINDING AND RECOMMENDATIONS

Need for Construction of an ES&H Laboratory

FINDING

     Established policy required the Department to ensure that proposed
construction projects are needed to meet mission requirements. The
Department planned, however, to construct a new ES&H Laboratory at Pantex
even though its mission requirements were already being satisfied either at
onsite laboratories or commercial laboratories. Construction of the
laboratory had been approved because the Department relied on justifications
that were not updated and were, therefore, inadequate. Furthermore, required
evaluations of alternatives were either not performed or not documented. As
a result, the Department planned to spend an additional $8.4 million on a
laboratory that was not adequately justified as necessary, that may compete
with private sector laboratories, and that may not provide a sufficient
appearance of independence.

RECOMMENDATIONS

     We recommend the Manager, Albuquerque Operations Office:

     -- Suspend additional funding for the ES&H Laboratory
construction project until the need for the laboratory is clearly established
and documented in writing. The document should include a complete analysis
of need based on projected future requirements and analysis of costs and
benefits of all alternatives that could satisfy the requirements for
laboratory services.

     -- Cancel the construction project if the ES&H Laboratory
cannot be justified.

MANAGEMENT REACTION

        Management agreed with the audit recommendations.   Part III of this
report addresses management and auditor comments.

DETAILS OF FINDING

     A specific objective of the Department's project management system,
established in Department Order 4700.1, is to ensure that construction
projects are needed to support the mission of the organization and are cost
effective. Once the need is established, the Order requires the Department's
field elements to identify and evaluate all competing project alternatives to
satisfy that need. Albuquerque Order 4700.1 requires that management and
operating contractors evaluate and rank all alternatives considered in the
Conceptual Design Report and documentation regarding the rationale for
rejecting each alternative.

        In addition, DOE Order 5100.3 requires an annual rejustification and
validation of a proposed project. Typically, construction data sheets,
submitted during the budget process, are used to explain and justify proposed
or ongoing construction projects. These sheets must be accurate and up-to-
date because they are used during Department, Office of Management and
Budget, and Congressional budget reviews. Without accurate data concerning
ongoing need, however, informed decisions cannot be made.

NEED FOR THE NEW ES&H LABORATORY

     Mason & Hanger planned to construct a new ES&H Laboratory and the
Department approved this construction, but at the time of our review, neither
Mason & Hanger nor Department officials could demonstrate convincingly that a
new onsite ES&H Laboratory was needed. Justification for construction--as
included in the Department's Fiscal Year 1996 budget request and other
documents--was based on the assertions that the existing chemistry laboratory
was outdated and ill-equipped, that offsite laboratories could neither
respond quickly enough to Pantex' needs nor analyze explosives, and that
offsite laboratories were not subjected to stringent Department quality
control criteria. The audit disclosed problems with each of these arguments.

     Information provided to us and our own observations showed that while
the present onsite laboratory was aging and becoming increasingly crowded, it
functioned satisfactorily. Site development plans through Fiscal Year 1992,
in fact, explicitly stated that Pantex was 100 percent mission capable with
the capital assets in place. Later site development plans were silent on
this issue, but made no reference to unmet mission requirements.
Furthermore, the audit disclosed that the primary reason for crowding in the
existing laboratory was an increasing environmental workload, not increased
explosives testing. Environmental testing can, as discussed below, be
performed offsite with satisfactory results.

     Neither Department nor Mason & Hanger project officials could document
that difficulties with analysis or turnaround times existed, either in
November 1992, when the Fiscal Year 1994 project data sheet was developed, or
in 1995, when the budget for the construction of the proposed laboratory was
submitted. To the contrary, Department and contractor officials responsible
for environmental programs informed us that offsite laboratories could
provide quick turnarounds for samples. If problems with turnaround times did
exist, these problems were not documented.

        Interestingly, we found that Mason & Hanger did not require quick
turnaround on most environmental samples. Between September 30, 1993, and
March 17, 1994, for instance, Mason & Hanger awarded subcontracts totaling
more than $1.1 million annually for non-radiological environmental analyses.
Of this amount, however, only $33,000 was awarded for performing analyses
with a turnaround time of 24 hours.

     The justification also stated that offsite laboratories could not
analyze water or soil for the most common explosives used at Pantex.
However, a May 1993 Mason & Hanger audit of an offsite laboratory noted that
this laboratory had the capabilities to perform explosives analyses, if
required.

     Finally, the justification stated that offsite laboratories were not
subject to stringent Department quality control criteria that were in place
onsite. However, we found that offsite laboratories had the same
requirements as onsite laboratories. Therefore, they were subject to the
same types of reviews, inspections, tests, checks, surveillances, and audits
as onsite facilities. In addition, the Department's quality assurance
program requirements, detailed in DOE Order 5700.6C, established the
necessity of adhering to stringent quality controls. This Order applies to
all management and operating contractors whether the services are performed
onsite or procured from offsite sources. Offsite laboratories, therefore,
are held to the same stringent Department criteria as onsite laboratories;
the only difference is that Mason & Hangar ensures compliance rather than the
Department.

REQUIRED REVIEWS AND ANALYSES

        The Department was poised to construct a laboratory that did not
appear necessary to meet mission requirements because it did not follow
established project management procedures. Justifications were not updated
and analyses of alternatives were either not performed or not adequately
documented.

Reevaluation of Need

     The audit showed that Mason & Hangar did not reevaluate its need for an
ES&H Laboratory after the Department began to downsize the weapons complex.
When Mason & Hangar first proposed constructing a new ES&H Laboratory, the
stockpile consisted of more than 20,000 weapons made up of 25 different
types. With changes in national security needs, however, the Department's
Office of Defense Programs projected a steady decline in both the size and
diversity of the nuclear stockpile. This projection indicated that by the
year 2003, the stockpile will be reduced to less than 3,500 weapons of 7
types. As these reductions became apparent, the Department did not ensure
that Mason & Hanger reevaluated its need for the proposed ES&H Laboratory.

Analysis of Alternatives

     The audit also showed that even if a mission need did exist, the
Department cannot be certain that constructing a new facility is the most
cost effective alternative. According to the Conceptual Design Report for
the proposed ES&H Laboratory, Mason & Hanger studied and rejected five
alternatives before concluding that constructing a new facility was the only
option available. These five alternatives were to: (1) continue using the
existing facility after remodeling and adding to it; (2) move the operations
to another facility onsite; (3) move to a temporary facility; (4) send
samples to outside contractors for analysis; or (5) take no action.

        We found, however, that Mason & Hanger officials did not perform
studies of the five alternatives as required by Albuquerque Order 4700.1.
Thus, Mason & Hanger did not determine if any of the alternatives were more
cost effective than constructing a new facility. When one Albuquerque
official requested Mason & Hanger to indicate if it was cost effective to
build the facility as opposed to continuing the analysis work offsite, Mason
& Hanger replied that it was impossible to make a meaningful direct cost
comparison because offsite laboratories pose unacceptable risks to the
Department. Mason & Hangar, however, did not document any analysis of
alternatives. Instead, an official told us that building the new laboratory
was the "common sense" solution.

        If it is determined that there is no need for independent analysis of
environmental samples, we believe that Mason & Hanger should have considered
the alternative of sending samples to another Department facility. For
example, Sandia National Laboratories have environmental sampling capability.
        To its credit, Albuquerque recognized that lack of clearly defined
roles and responsibilities was a weakness in its   project management system.
In its Fiscal Year 1994 assurance memorandum on internal controls,
Albuquerque attributed the weakness to evolving and increasing project
management requirements, limited or decreasing resources, and organizational
changes. In this regard, the Albuquerque Project and Facilities Management
Division officials said that they could not identify an Albuquerque program
sponsor or customer supporting construction of the ES&H Laboratory.

AVAILABLE BENEFITS

    The absence of a need determination based on future requirements, the
inaccuracies in the stated availability and suitability of services of
offsite commercial laboratories,           and the apparent omission of
studies of alternatives led us to conclude that the Department had not fully
justified the proposed ES&H Laboratory. In fact, if more of the ES&H testing
is done by outside laboratories, the proposed ES&H laboratory may not be
needed. Therefore, Albuquerque should suspend construction of the ES&H
Laboratory until the need is properly justified and the project proven to be
cost effective, or, if not cost effective, cancelled.

        At least three different types of benefits are available to the
Department if construction is halted. First, the Department could save about
$8.4 million. This figure represents the difference between the $8.8 million
appropriated by Congress and the $400,000 the Department has incurred in
costs and commitments as of the end of April 1995. Second, the Department
would no longer risk directly competing with private sector laboratories
capable of performing the same analyses. Finally, testing environmental
samples at offsite laboratories provides the credibility of independent
analyses. According to a Department official, having independent analyses is
a significant factor in the public's perception of Departmental credibility.
This official also pointed out that if an onsite laboratory is constructed,
the Department would still incur offsite analysis costs to validate the
results.


PART III

MANAGEMENT AND AUDITOR COMMENTS

        The Director, Project & Facilities Management Division agreed with the
recommendations. A summary of management and auditor comments follows.

Finding.   Need for Construction of an ES&H Laboratory

        Recommendation No.1: We recommend the Manager, Albuquerque Operations
Office, suspend additional funding for the ES&H Laboratory construction
project until the need for the laboratory is clearly established and
documented in writing. The document should include a complete analysis of
need based on projected future requirements and analysis of costs and
benefits of all alternatives that could satisfy the requirements for
laboratory services.

        Management Comments: Concur. Albuquerque said that all work and
funding for the project has been suspended until the project has been
rejustified (need for the laboratory is clearly established and documented in
writing). A final position is anticipated by December 15, 1995.
        Auditor Comments:   We believe Management's comments are responsive to
our recommendation.

        Recommendation No.2: We recommend that if the ES&H Laboratory cannot
be justified, cancel the construction project.

        Management Comments: Concur.
        Auditor Comments: We believe Management's comments are responsive to
our recommendation.
        In addition to commenting on our recommendations, Albuquerque also
provided other comments which we addressed to the extent possible in the body
of the report.


                                       Report No.   WR-B-96-02

CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as responsive as
possible to our customers'       requirements, and therefore ask that you
consider sharing your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future reports. Please
include answers to the following questions if they are applicable to you:

1.   What additional background information about the
     selection, scheduling, scope, or procedures of the
     audit or inspection would have been helpful to the
     reader in understanding this report?

2.  What additional information related to findings and
    recommendations could have been included in this report        to assist
management in implementing corrective actions?

3. What format, stylistic, or organizational changes might       have made
this report's overall message more clear to
    the reader?

4.  What additional actions could the Office of Inspector
    General have taken on the issues discussed in this report      which would
have been helpful?

Please include your name and telephone number so that we may contact you
should we have any questions about your comments.

Name ____________________________ Date______________________

Telephone _______________________ Organization______________

When you have completed this form, you may telefax it to the Office of
Inspector General at (202) 586-0948, or you may mail it to:

         Office of Inspector General (IG-1)
         Department of Energy
Washington, D.C. 20585
         ATTN: Customer Relations
If you wish to discuss this report or your comments with a staff member of
the Office of Inspector General, please contact Wilma Slaughter at (202) 586-
1924.

 * * * *

continued footnote

footnote continues next page
